                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


                        Audit of NRC’s Protection of
                          Safeguards Information


                      OIG-04-A-04        January 8, 2004




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         January 8, 2004




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF NRC’s PROTECTION OF SAFEGUARDS
                              INFORMATION (OIG-04-A-04)


Attached is the Office of the Inspector General’s audit report titled, Audit of NRC’s Protection of
Safeguards Information.

The report reflects the results of our audit to assess the U.S. Nuclear Regulatory Commission’s
(NRC) process for protecting safeguards information (SGI). Overall, we found that NRC’s use
of SGI contains similarities to the Government-wide program to protect confidential information.
In light of the events of September 11, 2001, and a subsequent Executive Order redefining
confidential information, NRC should determine whether the SGI designation is still justified.

NRC also needs to take strong action to limit inappropriate releases. Specifically, the agency
needs clear guidance on what constitutes SGI information and a central program authority to
maintain a sound and effective SGI program. The report also identifies concerns with the
secure telecommunications network that is used to transmit SGI information. Until the SGI
program is strengthened, the likelihood of releasing SGI to unauthorized individuals will remain
high.

Comments provided at the September 9, 2003, exit conference, during subsequent discussions,
and in a December 12, 2003, written response to the draft report have been incorporated, as
appropriate, in our final report. Appendix B contains the written response in its entirety.
Appendix C contains our point-by-point analysis of the agency’s formal comments.

If you have any questions, please call Russ Irish at 415-5972 or me at 415-5915.

Attachment: As stated

cc:     W. Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                 Audit of NRC’s Protection of Safeguards Information



EXECUTIVE SUMMARY

    BACKGROUND

          The definition of safeguards information (SGI) is derived from Section 147 of the
          Atomic Energy Act of 1954, as amended. It deals with information related to the
          physical protection of operating power reactors, spent fuel shipments, or the
          physical protection of special nuclear material. The U.S. Nuclear Regulatory
          Commission (NRC) carries out the Act through the Code of Federal Regulations
          and management directives to ensure that SGI is handled appropriately and is
          protected from unauthorized disclosure.

    PURPOSE

          The Office of the Inspector General (OIG) conducted this audit to determine
          whether NRC adequately defines what constitutes safeguards information,
          ensures its protection, and prevents its inappropriate release to individuals who
          should not have access to it.

    RESULTS IN BRIEF

          NRC has the authority, under the Atomic Energy Act, to establish an SGI
          program. However, OIG identified the following weaknesses in the SGI program:

          ‘      The benefit of the SGI designation as sensitive unclassified information is
                 not clear.

          ‘      Examples in which NRC and licensee representatives inappropriately
                 released SGI to unauthorized individuals.

          ‘      NRC does not have a central authority for controlling, coordinating and
                 communicating SGI program requirements.


    A. SAFEGUARDS DESIGNATION MAY NOT BE NEEDED

          NRC’s SGI program contains similarities to the Government-wide program to
          protect confidential information. As such, the benefits of maintaining a separate
          program are not clearly justified in relation to the cost. Moreover, the agency
          recently established a SGI-Modified Handling (SGI-M) designation that requires
          some SGI information to be handled similarly to official use only information. As
          a result, the agency now has two classes of SGI for marking protected
          information, both of which appear similar to other programs. Yet, NRC has
          determined neither the cost of maintaining nor the benefit derived from these
          separate programs. Without this kind of data, no one knows whether the SGI
          program should continue or be subsumed under the government-wide program.


                                           i
                                            Audit of NRC’s Protection of Safeguards Information

B. INAPPROPRIATE RELEASE OF SAFEGUARDS INFORMATION

     Recent inappropriate releases of SGI occurred because of handling errors and
     differing interpretations of what constitutes SGI. The agency is currently
     reviewing the requirements related to SGI to ensure that the appropriate
     protections are in place and that the requirements and guidance are clear. In
     addition, at the time of this report, agency officials were developing a guidance
     document to describe SGI clearly. However, until adequate tools and training
     are provided to help with the correct designation and handling of SGI, the
     likelihood of releasing SGI to unauthorized individuals remains. In effect, NRC
     has an SGI program that some users do not understand or do not know how to
     handle the SGI material.

C. NO CENTRAL PROGRAM AUTHORITY FOR PROTECTING SGI

     NRC controls do not ensure the protection of SGI because the agency lacks a
     strong, coordinated SGI program. SGI responsibilities are split between various
     agency offices and no entity controls the overall SGI program. This
     decentralization of authority has resulted in (1) inadequate training to identify,
     handle and distribute SGI, (2) insufficient coordination of the acquisition of
     secure telecommunications equipment, (3) inadequate installation, maintenance
     and testing of that equipment, (4) uncoordinated planning for automated
     processing of SGI, and (5) flawed guidance on the use of LAN-based computers
     to process SGI.

RECOMMENDATIONS

     The consolidated list of recommendations to the Executive Director for
     Operations is on page 17.

AGENCY COMMENTS

     The Deputy Executive Director for Homeland Security and Preparedness stated
     that NRC has made significant strides in improving the protection of SGI by NRC
     employees and licensees subsequent to the events of September 11, 2001.
     Overall, he believes that the SGI program is fulfilling its intended function.
     However, he also acknowledges that improvements can be made to the program
     and essentially agrees with the report’s recommendations. The Deputy
     Executive Director’s major concern centers on the continued justification for an
     SGI program vis-a-vis the national classified information system. He specifically
     believes that it would not be an appropriate use of the NRC staff’s time and
     resources to conduct a cost-benefit study to justify the SGI designation. He
     asked that OIG look at the wording of this recommendation to assure that it
     accurately captures the OIG intent. The Deputy Executive Director also provided
     detailed comments on the draft report for OIG consideration. (See appendix B
     for a copy of the comments provided by the Deputy Executive Director.)



                                      ii
                                              Audit of NRC’s Protection of Safeguards Information

OIG ANALYSIS OF AGENCY COMMENTS

      The primary issue to OIG is whether continuing the SGI designation is justifiable
      on its merits. During the course of this audit, the primary justification provided by
      NRC staff for maintaining the SGI designation was the cost associated with
      doing away with the designation and using the confidential designation in its
      place. Furthermore, the more detailed comments to the draft report provided by
      the Deputy Executive Director continued to discuss the costs associated with
      eliminating the SGI designation.

      OIG has reworded its initial recommendation to ensure that NRC formally
      documents the justification for continued use of the SGI designation. The
      justification could take several forms, such as a formal legal opinion that SGI is
      required based on congressional or presidential direction, or it could be justified
      on the basis of cost of maintaining the current SGI designation vis-a-vis the cost
      of using the confidential designation. During the audit, NRC staff was not able to
      provide any formal justification for the SGI designation other than anecdotal
      accounts of the significant cost involved if it were to change or that it has been
      done this way for the last 20 years. The issue for OIG is whether, in light of the
      events of September 11, 2001, and a subsequent Executive Order redefining
      confidential information, business as usual is still justified. (See appendix C for
      detailed OIG analysis of the Deputy Executive Director’s comments.)




                                        iii
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




               iv
                                              Audit of NRC’s Protection of Safeguards Information


ABBREVIATIONS AND ACRONYMS

    ADM       Office of Administration
    AEA       Atomic Energy Act
    CFR       Code of Federal Regulations
    COMSEC    Communications Security
    EDO       Executive Director for Operations
    Fax       Facsimile machine
    ISDN      Integrated Services Digital Network
    LAN       Local Area Network
    MD        Management Directive
    NMSS      Office of Nuclear Materials Safety and Safeguards
    NRC       U. S. Nuclear Regulatory Commission
    NRR       Office of Nuclear Reactor Regulation
    NSA       National Security Agency
    NSIR      Office of Nuclear Security and Incident Response
    NUREG     NRC technical report designation
    OCIO      Office of the Chief Information Officer
    OIG       Office of the Inspector General
    RIS       Regulatory Issue Summary
    SGI       safeguards information
    STE       Secure Terminal Equipment
    STU-III   Secure Telephone Unit




                                         v
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




               vi
                                                                     Audit of NRC’s Protection of Safeguards Information


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
    I.     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.    PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    III.   FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              A.      SAFEGUARDS DESIGNATION MAY NOT BE NEEDED . . . . . . . . . . . . . . . . . . . . 2
              B.      INAPPROPRIATE RELEASE OF SAFEGUARDS INFORMATION . . . . . . . . . . . . . . . 6
              C.       NO CENTRAL PROGRAM AUTHORITY FOR PROTECTING SGI . . . . . . . . . . . . . 8
    IV. NRC MANAGEMENT INITIATIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
    V.     CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . 17


    APPENDIX


    A.     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
    B.     AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    C.     DETAILED OIG ANALYSIS OF AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . 29




                                                            vii
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




              viii
                                                          Audit of NRC’s Protection of Safeguards Information


I. BACKGROUND

            Based on a congressional request, the Office of the Inspector General (OIG)
            conducted an audit and issued a report on the U.S. Nuclear Regulatory
            Commission’s (NRC) handling and marking of sensitive unclassified information1.
            The objective of that audit was to assess NRC’s program for handling, marking,
            and protecting one category of sensitive unclassified information — official use
            only. During that audit, an NRC Commissioner raised concerns about whether
            NRC staff clearly understood what constitutes safeguards information, another
            category of sensitive unclassified information. As a result, OIG initiated a follow-
            on audit concerning the protection of safeguards information.

            Derivation of Safeguards Information

            The definition of safeguards information (SGI) is derived from Section 147 of the
            Atomic Energy Act (AEA) of 1954, as amended. It deals with information related
            to the physical protection of operating power reactors, spent fuel shipments, or
            the physical protection of special nuclear material. The AEA states that SGI
            identifies a licensee’s or applicant’s detailed:

            •        Control and accounting procedures or security measures for the physical
                     protection of special nuclear material;
            •        Security measures for the physical protection of source material or
                     byproduct material; and,
            •        Security measures for the physical protection of and the location of
                     certain plant equipment.

            NRC Internal Controls for Safeguards Information

            Following the AEA, NRC developed regulations to prevent the unauthorized
            disclosure of SGI. NRC stipulated licensee requirements for protecting
            safeguards information in Title 10 of the Code of Federal Regulations, Part 73,
            Physical Protection of Plants and Materials, Section 73.21, (10 CFR 73.21).

            SGI is part of NRC’s Sensitive Unclassified Information security program.
            Sensitive unclassified information consists of information designated as
            safeguards, official use only, and proprietary. It also includes unclassified
            information received from other sources (e.g., Government agencies,
            contractors, licensees) and requires special protective measures.




    1
      OIG-03-A-01, Review of NRC’s Handling and Marking of Sensitive Unclassified Information, October 16,
    2002.

                                                   1
                                                Audit of NRC’s Protection of Safeguards Information

          Management Directive and Handbook (MD) 12.6, NRC Sensitive Unclassified
          Information Security Program, provides staff requirements to protect SGI. These
          requirements state that SGI:

          •      must be communicated over secure telecommunications equipment;
          •      must not be processed on the local area network (LAN);
          •      must be properly marked; and,
          •      must include a cover sheet to facilitate its recognition.


II. PURPOSE

          OIG performed this audit to determine whether NRC adequately:

          ‚      defines SGI;
          ‚      prevents the inappropriate release of SGI to anyone who should not have
                 access to it; and,
          ‚      ensures the protection of SGI.

          Appendix A provides a detailed description of the audit’s scope and
          methodology.


III. FINDINGS

          NRC has the authority, under the Atomic Energy Act, to establish an SGI
          program. However, OIG identified the following weaknesses in the SGI program:

          ‘      The benefit of the SGI designation as sensitive unclassified information is
                 not clear.
          ‘      Examples in which NRC and licensee representatives inappropriately
                 released SGI to unauthorized individuals.
          ‘      NRC does not have a central authority for controlling, coordinating and
                 communicating SGI program requirements.


     A. SAFEGUARDS DESIGNATION MAY NOT BE NEEDED

          NRC’s SGI program contains similarities to the government-wide program to
          protect confidential information. As such, the benefits of maintaining a separate
          program are not clearly justified in relation to the cost. Moreover, the agency
          recently established a SGI-Modified Handling (SGI-M) designation that requires
          some SGI information to be handled similarly to official use only information. As
          a result, the agency now has two classes of SGI for marking protected




                                          2
                                                  Audit of NRC’s Protection of Safeguards Information

        information, both of which appear similar to other programs. Yet, NRC has
        determined neither the cost of maintaining nor the benefit derived from these
        separate programs. Without this kind of data, no one knows whether the SGI
        program should continue or be subsumed under the government-wide program.

        Background

        According to an NRC official, early in the agency’s history, NRC recognized the
        need to protect particular information related to nuclear topics that were not
        classifiable under the National Security Information regime. Consequently, NRC
        instituted a category of Sensitive But Unclassified information known as
        “Safeguards Information” under Section 147 of the Atomic Energy Act. As a
        result, the NRC has a 20-year history of protecting sensitive nuclear information
        that does not meet the criteria for classification as National Security Information.

                Definition of Confidential vs. Safeguards Information

        Executive Order 12958, Classified National Security Information2, defines
        confidential information as that which “the unauthorized disclosure of which
        reasonably could be expected to cause damage to the national security.”
        [Section 1.2. (a)(3)]

        One classification category to which confidential can be applied is:

                vulnerabilities or capabilities of systems, installations, infrastructures,
                projects, plans, or protection services relating to the national security,
                which includes defense against transnational terrorism. [Section 1.4. (g)]

        The various departments and agencies of the Federal Government classified
        approximately 23.7 million documents in FY 2002. The definition of classified
        document is understood and is standardized across the Government.

        SGI is defined as information related to the physical protection of operating
        power reactors, spent fuel shipments, or the physical protection of special
        nuclear material. NRC is the only agency that uses the SGI designation.
        Although there is no empirical data, NRC officials estimate that there may be a
        few thousand SGI documents.




2
 As amended by Executive Order 13292 dated March 25, 2003.


                                            3
                                                                  Audit of NRC’s Protection of Safeguards Information

                  Handling of Safeguards Information vs. Confidential Information

                  According to NRC’s “Minimum Requirements for Handling Classified and
                  Sensitive Unclassified Information,” confidential information and SGI are handled
                  similarly.

Category of        Transmission     Control    Storage         Reproduction    Cover    Access           Classification
Information        Outside NRC      Records                    Authority       Sheet    Authorization    Designation
                                                                                                         Authorities

CONFIDENTIAL       Certified Mail   Optional   Approved        As Needed       Yes      “L” and          Authorized
                                               Security        Unless                   Need-to-         Classifier
                                               Container       Prohibited by            Know
                                                               Originator

SGI                First Class      No         Bar Lock        As Needed       Yes      Need-to-         NRC Section
                   Mail                        File                                     Know             Chiefs and
                                               Cabinet                                                   Above

                  As can be seen in the chart, SGI is handled like confidential information, with
                  some lighter restrictions. OIG believes the additional cost of protecting
                  confidential information is minor (e.g., sending documents by certified mail
                  instead of first class or the cost of an approved security container instead of a
                  bar lock). Thus, the cost of maintaining the SGI designation (e.g., the cost of
                  maintaining the regulations, training, etc.) could be more than the additional
                  costs of protecting confidential information.

                  Handling of Safeguards Modified Information vs. Official Use Only
                  Information

                  While safeguards and security information at nuclear reactor sites licensed by
                  NRC are handled as SGI, the agency recently notified certain materials licensees
                  that they could use the designation “Safeguards Information-Modified Handling
                  (SGI-M).” Although civil and criminal penalties applicable to SGI apply to
                  unauthorized disclosures of SGI-M, the handling of SGI-M is more relaxed --
                  more like Official Use Only information.

Category of        Transmission     Control    Storage         Reproduction    Cover    Access           Classification
Information        Outside NRC      Records                    Authority       Sheet    Authorization    Designation
                                                                                                         Authorities

OFFICIAL USE       First Class      No         See 1.          As Needed       Yes      Need-to-         Originator
ONLY               Mail                        Below                                    Know

SGI-M              First Class      No         See 2.          As Needed       Yes      Need-to-         NRC Section
                   Mail                        Below                                    Know             Chiefs and
                                                                                                         Above
 1.       Official use only information stored in NRC space with approved electronic access control or NRC contract
          guards require no additional physical security measures.

 2.       SGI-M stored in licensee space must be stored in a locked file drawer or container. SGI-M stored in NRC
          space must be protected in the same manner as regular SGI information (e.g., bar-lock file cabinets).


                                                           4
                                       Audit of NRC’s Protection of Safeguards Information

Additionally, materials licensees may produce or process SGI-M information on
an automatic data processing system requiring the use of entry codes or
passwords, without the use of a standalone computer.

Additional Considerations

Agency officials pointed out that additional requirements would be necessary to
change the SGI designation from sensitive unclassified information to classified
information. One such requirement would be the need for security clearances
for licensee employees. They also said that this action would require additional
costs and increase the length of time to hire a new employee. Agency officials
have differing opinions on the costs licensees would incur with a change in the
designation of SGI. One agency official estimated additional costs of
$10,000,000 to the industry, based on an average of 500 employees per site at a
cost of $200 per employee (actual Government cost is $145 per employee).
Another estimated costs to the industry of $14,372,000, based on the same per
employee cost, but using an average of 838 employees per site. Licensees
stated that current industry costs associated with obtaining criminal checks,
fingerprint checks, psychological evaluations and other tests to bring on a new
employee average $486.

OIG believes that the requirements to bring new employees onto licensee sites
are basically the same as those associated with obtaining appropriate security
clearances for having access to confidential information. If licensees were to
use NRC as the vehicle for their security checks, new employees would be
properly vetted and receive a Government security clearance for about $145, a
cost savings to the licensees. However, no one has conducted an in-depth
evaluation of the benefit of the current safeguards program as compared to the
additional cost, if any, of using the Government-wide confidential designation.

Summary

Especially in the aftermath of the terrorist attacks on September 11, 2001, the
OIG questions whether the designation of SGI as sensitive unclassified
information is justified or cost effective. OIG believes SGI information can be
protected by the standard confidential classification with little or no additional
cost. Moreover, SGI-M can be adequately protected by the standard official use
only designation.

Agency Comment and OIG Response

In his comments responding to the final draft report (see Appendix B), the
Deputy Executive Director for Homeland Security and Preparedness indicated
his major concern centers on the continued justification for an SGI program vis-
a-vis the national classified information system. He specifically believes that it
would not be an appropriate use of the NRC staff’s time and resources to




                                 5
                                            Audit of NRC’s Protection of Safeguards Information

     conduct a cost-benefit study to justify the SGI designation. He asked that OIG
     look at the wording of this recommendation to assure that it accurately captures
     the OIG intent.

     The primary issue to OIG is whether continuing the SGI designation is justifiable
     on its merits. As a result, OIG has reworded its initial recommendation to ensure
     that NRC formally document the justification for continued use of the SGI
     designation. The justification could take several forms, such as a formal legal
     opinion that SGI is required based on congressional or presidential direction, or it
     could be justified on the basis of the cost of maintaining the current SGI
     designation vis-a-vis the cost of using the confidential designation.

     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     1.     Formally document the justification for continued use of the safeguards
            information designation.

B. INAPPROPRIATE RELEASE OF SAFEGUARDS INFORMATION

     Recent inappropriate releases of SGI occurred because of handling errors and
     differing interpretations of what constitutes SGI. The agency is currently
     reviewing the requirements related to SGI to ensure that the appropriate
     protections are in place and that the requirements and guidance are clear. In
     addition, at the time of this report, agency officials were developing a guidance
     document to describe SGI clearly. However, until adequate tools and training
     are provided to help with the correct designation and handling of SGI, the
     likelihood of releasing SGI to unauthorized individuals remains. In effect, NRC
     has an SGI program that some users do not understand or do not know how to
     handle the SGI material.

     Background

     The definition of SGI is provided within the Atomic Energy Act (AEA), the Code
     of Federal Regulations, agency management directives, and other agency
     guidance. However, the definition of SGI results in instances of differing
     interpretations.




                                      6
                                                       Audit of NRC’s Protection of Safeguards Information

         Differences in the Interpretation of Safeguards Information Between
         Licensees and NRC

         Licensees and NRC staff have different interpretations for applying the SGI
         designation. OIG interviewed NRC resident inspectors3 and licensee security
         officials at 15 commercial nuclear power plant sites and 6 nuclear research and
         test reactor facilities to try to understand these differences.

         Licensee officials generally stated that the guidance for applying SGI was not
         clear, there are inconsistencies in the guidance, and that over the years NRC
         staff has imposed self-interpretations for SGI. A specific area of confusion is the
         information included in licensees’ weekly security force reports issued for each
         commercial nuclear power plant to NRC. Resident inspectors and licensee
         security officials stated that licensees do not believe the information provided for
         the weekly security force report is SGI, yet NRC designates this as SGI.

         Inappropriate Releases of SGI

         Weaknesses in the SGI program are further evidenced by inappropriate releases
         of SGI in documents and on public websites. One licensee presented a
         contingency plan to Region IV that the licensee believed was cleansed of SGI.
         The report made it through two licensee revisions without any identification that it
         contained SGI. On its third revision, an NRC official determined the report
         contained SGI. By this time, the licensee had shared the contingency plan with
         local law enforcement and had to collect it back from them. In another instance,
         a licensee prepared a presentation with pictures that compromised the security
         of a commercial nuclear power plant. Originally, NRC expressed no concerns
         that the presentation contained SGI and included it on the agency’s website. It
         was not until an NRC headquarters official determined that the presentation
         included SGI that the agency removed the presentation from the website.

         Recent events involving NRC employees provide further evidence of
         weaknesses in control and handling of SGI.

         ‘        An NRC employee distributed a document that contained force-on-force
                  program findings to the public. The employee believed the report was
                  “sanitized” and distributed the report to nuclear industry officials, who
                  then distributed the report to the press. NRC officials later determined
                  that the report contained SGI that had not been properly marked.




3
 For purposes of this report, OIG uses the term “ resident inspectors” to denote NRC staff interviewed at
commercial nuclear power reactor sites and does not distinguish between resident inspectors and senior
resident inspectors.


                                                7
                                             Audit of NRC’s Protection of Safeguards Information

     ‘      The release of SGI occurred at an industry-sponsored meeting when a
            guest NRC speaker mentioned SGI relating to the agency’s force-on-
            force security testing program. However, the SGI had already been
            publicly available through other sources.

     ‘      NRC staff made another document related to the force-on-force program,
            which contained SGI, available to the public on the external NRC website.

     A March 2003 NRC release of SGI shows the possible significant consequences
     of not having adequate controls over this type of information. NRC had
     developed a Regulatory Issue Summary (RIS) containing agency designated
     SGI. The RIS was intended for “all power reactor (including decommissioning
     reactor) licensees, independent spent fuel storage installation licensees, the
     conversion facility licensee, gaseous diffusion plant licensees, and Category I
     fuel cycle facility licensees.” However, NRC released the RIS not only to the
     identified groups, but also to Category III fuel cycle facility licensees and certain
     vendors. According to an NSIR official, this was because one program office
     provided an inappropriate mailing list that included entities that should not have
     received the document. This NSIR official added that the staff responsible for
     the mailing was “junior staff” who did not recognize the inappropriate addresses.
     To compound the severity of this release, the RIS contained specific information
     about methods and techniques of defeating physical barriers at nuclear facilities,
     which would be of value to potential adversaries.

     Summary

     These examples of inappropriate releases resulted from a combination of
     handling errors and differing interpretations of what information constitutes SGI.
     Without clear guidance on how to designate SGI, agency and licensee staff will
     continue to release SGI to unauthorized individuals inappropriately. The agency
     is preparing a guidance document to help with the identification of SGI; however,
     it is not yet complete.

     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     2.     Finalize and issue the safeguards information designation guidance
            document currently being developed.

C. NO CENTRAL PROGRAM AUTHORITY FOR PROTECTING SGI

     NRC controls do not ensure the protection of SGI because the agency lacks a
     strong, coordinated SGI program. SGI responsibilities are split between various
     agency offices and no entity controls the overall SGI program. This
     decentralization of authority has resulted in (1) inadequate training to identify,
     handle and distribute SGI, (2) insufficient coordination of the acquisition of


                                       8
                                                       Audit of NRC’s Protection of Safeguards Information

         secure telecommunications equipment, (3) inadequate installation, maintenance
         and testing of that equipment, (4) uncoordinated planning for automated
         processing of SGI, and (5) flawed guidance on the use of LAN-based computers
         to process SGI.

         Background

         Aspects of the SGI program are split among the NRC’s Offices of Administration
         (ADM), Nuclear Security and Incident Response (NSIR), the Chief Information
         Officer (OCIO), Nuclear Material Safety and Safeguards (NMSS), and Nuclear
         Reactor Regulation (NRR). While NRC has a single agency official for homeland
         protection and preparedness issues, SGI protection controls are fragmented.
         As a result, there is no central authority for the agency’s SGI program and no
         single organization controls the program.

                          Distribution of SGI Responsibilities
                             ADM            NSIR           OCIO            NMSS           NRR
Inform Licensees                                                              /            /
of Guidance
Training NRC                   /               /              /
Employees
Computer                                                      /
Processing
Secure Telephones                              /
ISDN Lines4                                                   /
Requirements                   /
Information5

         NRC has invested more than $600,000 to provide secure telecommunications
         equipment in headquarters, the four regional offices, and at all resident inspector
         offices. The agency did this to ensure the agency could send classified
         information to the licensees. The Commission believed that licensees were
         entitled to the information necessary to evaluate the threats to their plants and to
         defend their facilities. This policy resulted in an exponential growth in the
         secure telecommunications equipment for which the agency is responsible. NRC
         acquired Secure Terminal Equipment (STE)6 for use at headquarters and the
         regional offices. The agency also distributed older Secure Telephone Units -


4
 The Integrated Services Digital Network is a high speed digital communication network.

5
 Minimum Requirements for Handling Classified and Sensitive Unclassified Information.

6
 The STE is secure voice and data equipment designed for use on digital communications networks,
although they can operate in the analog mode.
                                                9
                                                       Audit of NRC’s Protection of Safeguards Information

          Model 3 (STU-III)7(previously possessed by NRC or provided by the U.S. Army)
          to resident inspector offices at commercial nuclear power reactor sites. NRC
          also purchased secure fax machines to be connected and used jointly with the
          secure telephones.


                           Equipment         Number          Cost
                              STE              94          $370,000
                             STU-III           71             -0-
                           Secure Fax          78          $242,000
                            TOTAL                          $612,000
    STE

          In addition, licensees will pay more than $45,000 for security clearances to allow
          direct communication with NRC officials over the secure telecommunications
          equipment in the resident inspector offices. NRC directed that five licensee
          representatives at each site receive a security clearance8. To obtain each
          clearance, licensees pay NRC a fee of about $145 for each security clearance, or
          $725 per site for 65 sites.

          Inadequate Training

          Training related to SGI is fragmented. There is no single point of ownership for
          training on handling and protecting information among the program offices.
          NMSS officials stated that, while they are not responsible for training other NRC
          employees and contractors, they do provide training for their own staff. ADM
          officials stated they stopped providing training in information security areas for
          NRC employees and contractors since the creation of NSIR. However, ADM
          does give NRC employees certain types of security education, programs and
          security awareness tools.

          Before June 2003, NRC had not provided agency-wide SGI training to agency
          employees. Some program offices within NRC headquarters requested training on
          the handling of sensitive unclassified information and received it within the past
          year. The same is true for all four of NRC’s regional offices. However, not all
          employees involved with or responsible for controlling SGI had received formal
          documented training. In response to OIG’s previous audit report on the handling
          and marking of sensitive unclassified information, NSIR agreed to develop a
          comprehensive security education program for handling both classified and
          sensitive unclassified information that includes SGI. NRC completed this training
          for agency employees in July 2003.




7
 The STU-III is a secure analog telephone unit that can encrypt voice and data communications worldwide.

8
 Licensee representatives will receive an ‘L’ security clearance based on a national agency check with
inquiries.
                                               10
                                                     Audit of NRC’s Protection of Safeguards Information

        Acquisition of Secure Telecommunications Equipment

        An additional benefit of secure telecommunications equipment is using it to
        transmit SGI. ADM had responsibility for the FY 2002 installation of secure
        telecommunication equipment in the resident inspector offices at commercial
        nuclear power plants. During this period, ADM also was the Central Office of
        Record11 for the agency. NRC got the equipment expeditiously because of the
        concerns of additional terrorist attacks. After NSIR was established, ADM’s
        duties were transferred to that office.

        NSIR will need to consult with OCIO to install ISDN lines to operate secure
        telephone equipment because OCIO controls the acquisition and installation of
        ISDN lines. This collaboration between OCIO and NSIR will be integral for
        making decisions about future alternatives to the secure telephones. For
        example, National Security Agency (NSA) officials told OIG that new equipment
        is now available that can encrypt conversations through regular telephones. This
        is possible without the use of special equipment, such as STU-IIIs or STEs, or an
        ISDN line. As a result, NRC needs to coordinate future secure
        telecommunications equipment purchases among responsible offices to ensure
        that appropriate equipment is obtained.

                 Inadequate Installation, Maintenance, and Testing of Secure
                 Equipment

        Installation

        Agency requirements state that secure telecommunications equipment that is
        newly installed, moved, or modified must not be operated until ADM has done
        the required security checks. ADM-authorized qualified maintenance personnel
        also must determine that the equipment is properly installed with all required
        modifications and ready for operation. These requirements were written (1)
        when very few secure telephones existed, (2) when the secure telephones were
        mostly in headquarters and the regional offices, and (3) before NSIR assumed
        the responsibilities of ADM for these activities. While these requirements are still
        applicable today, they were not followed when the agency installed the new
        secure telecommunications equipment in the resident inspector offices. Agency
        officials said that OCIO had previously provided one person whose primary
        responsibility was to visit headquarters and regional office sites where secure
        telecommunications equipment was found and provide technical services.
        However, while installing the new STEs, OCIO provided assistance for
        configuring ISDN lines, which were primarily installed at headquarters.




11
 The Central Office of Record performs oversight of all NRC communications security accounts and
coordinates all communications security activities with the National Security Agency for NRC.
                                             11
                                                        Audit of NRC’s Protection of Safeguards Information

                 Maintenance

                 Communications security (COMSEC) custodians12 are not responsible for the
                 physical maintenance of the secure equipment, although they may be called
                 upon for troubleshooting the operation of that equipment. An OCIO manager
                 stated that COMSEC custodians do not have the technical expertise to maintain
                 the secure equipment. Also, this manager said that OCIO itself did not have the
                 additional technical resources needed to support all of the secure
                 telecommunications equipment. Although NSIR asked regional management to
                 provide COMSEC support for installing and maintaining secure
                 telecommunications equipment, regional management expressed concern that
                 the equipment would require additional resources for which they are not currently
                 budgeted. As such, the agency does not currently provide the necessary
                 resources to visit each site to install and test secure telecommunications
                 equipment.

                 Testing

                 OIG directed limited testing of the secure telecommunication system to
                 determine whether it worked as intended and if agency staff were familiar with its
                 operation. Testing determined that NRC’s secure telecommunications system
                 may not work when needed and SGI could be compromised.

                 OIG observed twenty-two tests of the secure
                 telephones and fax machines. Four tests               Successful Phone Calls on the
                 were initiated from NRC headquarters and                       1st Attempt
                 18 from the backup Incident Response
                                                                          20               17
                 Operation Center. Seventeen of the tests                 15
                 failed on the first attempt to obtain a secure           10     5
                                                                           5
                 connection and then receive and                           0
                                                                                ye s      no
                 subsequently transmit a secure fax
                 transmission. Five of the tests performed
                 properly on the first attempt.

                                              Of the 17 initial failed tests, 5 sites were never able
     Reasons for Failures                     to send or receive a fax. The remaining 12 sites
                           No
                       Successful
                                              failed due to unsuccessful initial telephone
     Other
                        Attempts
                          18%
                                              connections, failed fax fuses, or failure of a STU-III
     24%
                                              to connect with a STE or vice-versa. The other
                                              category includes issues such as: a security safe
                            Fuses Blown
                                              that would not open, which prevented the resident
                               24%            inspector from retrieving the encryption key needed
  Equipment
                                              to activate the secure telephone; a caller switching
 Incompatibili
      ty
                                              from secure data before the fax transmission was
     34%
                                              completed; and, two cases when the reasons for
                                              failure were indeterminate.


12
  The agency has identified COMSEC custodians within headquarters and at each regional office to provide
training to secure telecommunications users in their office or region and perform a semi-annual physical
inventory of all secure telecommunications equipment.
                                                 12
                                                   Audit of NRC’s Protection of Safeguards Information



        NSIR representatives said that, prior to OIG's test, the agency only tested the
        secure network after the initial installation of the secure telecommunications
        equipment at each resident inspector office. Furthermore, there were no plans
        to establish ongoing, periodic testing. Resident inspectors recognized there
        were operational problems with the secure telecommunications equipment, but
        they did not appear overly concerned. Some stated that, in an emergency, they
        would opt to use the regular telephone as management directives provided
        examples of extraordinary circumstances under which SGI may be discussed
        over unsecured telephone lines. However, it is NRC's policy to use the secure
        telecommunications system equipment for the day-to-day transmittal of SGI and
        classified infomation.

        Uncoordinated Planning for Automated Processing of SGI

        NRC is considering using encrypted e-mail to transmit SGI. Prior to establishing
        NSIR, a working group made up of representatives from various NRC program
        offices and industry representatives discussed the need to electronically transmit
        SGI. The working group developed NRC RIS 2002-15, NRC Approval of
        Commercial Data Encryption Systems for the Electronic Transmission of
        Safeguards Information, dated August 28, 2002. This document provides
        guidance on obtaining agency approval of commercial data encryption systems
        for the electronic transmission of SGI.

        To develop a viable electronic transmission and processing program for SGI,
        agency officials will need to work collaboratively. While OCIO is responsible for
        computer processing, ADM is responsible for access authorization, NSIR for
        information security, and NMSS and NRR for providing guidance to the
        licensees. Although all of these offices concurred in the development of NRC
        RIS 2002-15, no single office has overall authority to coordinate and control the
        program to ensure consistency of effort, economy and efficiency in application.

        Technically Flawed Guidance for Computer Processing of SGI

        NRC guidance on processing SGI on computers is technically flawed.
        NUREG/BR-0168, Revision 213 allows the use of a LAN-based computer for
        processing SGI as long as the computer is disconnected from the LAN prior to its
        use in processing SGI. However, NSA officials stated that this method places a
        shadow file on the hard drive of the computer, which then could be accessed
        through the LAN when the computer is reconnected. NSA studies found traces
        of classified documents on hard drives even though documents were processed
        using floppy disks. In short, SGI should not be processed on any computer that
        is or will be connected to the LAN.




13
 NUREG/BR-0168, Revision 2 Policy for Processing and Handling Unclassified Safeguards Information
and Other Sensitive Information in the NRC Local-Area /Wide-Area Network Environment, December 1999.
                                            13
                                               Audit of NRC’s Protection of Safeguards Information

         Summary

         In order for NRC to maintain a sound and effective SGI program, it must be
         managed by a central authority. That authority should have the ability to engage
         resources throughout the agency and be able to hold them accountable for the
         tasks at hand. In addition, a central authority would be able to ensure a
         consistent application of SGI guidance and training, and maintain oversight for
         secure telecommunications equipment and automated processing of SGI.
         While NRC has a single agency official for homeland protection and
         preparedness issues, there is no central authority for the agency’s SGI program.

         NRC has invested more than $600,000 in secure telecommunications equipment
         for a classifed information and SGI (sensitive unclassified) program that is not
         working as intended. The amount of secure telecommunications equipment
         currently within the agency has outgrown NRC's resources to provide adequate
         installation, oversight, and maintenance of that equipment. The agency needs
         to perform regular, documented tests to ensure that the secure
         telecommunications network is operating properly and that NRC staff is familiar
         with its operation. Additionally, agency guidance on computer processing of SGI
         must clearly indicate that the use of a LAN-based system is prohibited.

         RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         3.     Designate a central authority for controlling, communicating and
                coordinating the safeguarrds information program.

         4.     Provide adequate resources to ensure the timely installation,
                maintenance, and troubleshooting of problems with secure
                telecommunications equipment.

         5.     Formalize a program for periodic testing and documentation of the secure
                telecommunications network.

         6.     Revise NRC procedures to eliminate the processing of SGI on the LAN.


IV. NRC MANAGEMENT INITIATIVES

         NSIR is making progress on corrective actions in answer to the
         recommendations made in the recently issued OIG audit report on the handling
         and marking of sensitive unclassified information. Specifically, the office is
         conducting a total review of MD 12.6 to make the guidance more prescriptive
         and is developing a security education program. This program will be used for
         training NRC employees and contractors about the handling of both classified
         and unclassified sensitive information.


                                        14
                                      Audit of NRC’s Protection of Safeguards Information

On May 20, 2003, NSIR issued a Yellow Announcement reminding agency staff
of the requirement to report inadvertent releases to the EDO and the OIG. The
announcement also notified agency staff of available monthly training concerning
the protection and handling of classified and sensitive unclassified information.
NSIR also conducted mandatory security classes in June and July 2003, in
response to recommendations made in OIG’s earlier audit report. After that,
NSIR will continue to provide monthly training sessions at the request of the
program offices, as long as there are at least 5 to 10 individuals that need the
training. Although NSIR is taking actions to strengthen the controls over
sensitive unclassified information, OIG believes that the information and
recommendations contained in this report must be factored into any revised
training program NSIR develops.

The cover sheets for classified information and SGI were modified to include
instructions on the proper handling of documents containing these types of
information. The cover sheet for SGI was changed from green to purple to
better distinguish it from the Official Use Only cover sheet, which is green and
white. Instructions for marking, storing, handling and transmitting SGI are
included on the reverse side of the cover sheet to provide users with a quick
reference guide on handling and protecting SGI. The requirement for the use of
secure telecommunications equipment is also highlighted for the electronic
transmission of SGI. Having the guidance on the cover sheet provides
information to those employees who do not often handle SGI, and provides a
quick refresher for those who are more familiar with the requirements. Effective
May 15, 2003, agency personnel were requested to cease using the green
version of the SGI cover sheet and begin using the purple cover sheet.

Although NRC implemented a plan in June 2002 for the comprehensive review of
safeguards and security programs for NRC-licensed facilities and activities, it
has yet to complete the actions designated in that plan. Of particular interest to
the subject of this report, the agency has not completed its review of the
requirements related to SGI. The recommendations contained in this report
must be factored into any further implementation and completion of that plan.




                                15
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




              16
                                              Audit of NRC’s Protection of Safeguards Information


V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Formally document the justification for continued use of the safeguards
               information designation.

        2.     Finalize and issue the safeguards information designation guidance
               document currently being developed.

        3.     Designate a central authority for controlling, communicating and
               coordinating the safegurards information program.

        4.     Provide adequate resources to ensure the timely installation,
               maintenance, and troubleshooting of problems with secure
               telecommunications equipment.

        5.     Formalize a program for periodic testing and documentation of the secure
               telecommunications network.

        6.     Revise NRC procedures to eliminate the processing of SGI on the LAN.




                                       17
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




              18
                                              Audit of NRC’s Protection of Safeguards Information

                                                                                   APPENDIX A
SCOPE AND METHODOLOGY

        OIG audited the protection of safeguards information at NRC. To accomplish
        the audit objectives, OIG reviewed NRC Management Directives, agency
        guidance, OIG reports, and outside agency documents. Auditors interviewed
        NRC employees, licensee security officials, Department of Energy employees,
        and representatives from the National Security Agency to determine their
        understanding of the SGI definition, familiarity with the operation of the secure
        telecommunication equipment and practices for protecting SGI. OIG performed
        tests of the secure telephones and fax machines located at Regions I and IV and
        22 different resident inspector sites.

        The work was conducted from October 2002 through April 2003 in accordance
        with generally accepted Government auditing standards and included a review of
        management controls related to the objectives of the audit.

        The major contributors to this report were: Russell Irish, Team Leader;
        Shyrl Coker, Audit Manager; David Ditto, Management Analyst; and
        William Kemper, Technical Advisor.




                                        19
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




              20
                                                      Audit of NRC’s Protection of Safeguards Information

                                                                                           APPENDIX B
AGENCY COMMENTS

                                             December 12, 2003


MEMORANDUM TO:                Stephen D. Dingbaum
                              Assistant Inspector General for Audits


FROM:                         William F. Kane /RA/
                              Deputy Executive Director for Homeland
                               Protection and Preparedness
                              Office of the Executive Director for Operations


SUBJECT:                      OIG DRAFT REPORT: AUDIT OF NRC’S PROTECTION OF
                              SAFEGUARDS INFORMATION


This memorandum is in response to your memorandum dated October 28, 2003, forwarding the
Office of the Inspector General’s (OIG’s) draft audit report entitled “Audit of NRC’s Protection of
Safeguards Information” for staff review and comment. There has been more extensive
interaction between OIG and NRC staff regarding this draft report which has led to an unusual
delay in my providing you this response.

After receipt of the draft report in August 2003, the staff had several issues with the conclusions
reached by OIG, including some of the facts on which those conclusions were based. Of
particular concern were two items: (1) the broad conclusion reached regarding the staff’s
control of safeguards information (SGI) and (2) the recommendation that the staff perform a
cost-beneficial analysis to justify the continued use of SGI. Comments on the draft report,
which focused heavily on the above two items, were provided to you and your audit team during
both a teleconference and a subsequent exit conference in early September 2003. Additionally,
there have been several follow-up interactions between OIG and the NRC staff to further our
understanding of the basis for OIG’s conclusions and recommendations, as well as better
explain the NRC staff’s concerns with the draft report. It is my understanding that this has
resulted in a number of changes that will be reflected in the final report. I appreciate the
willingness of the OIG to remain open to the feedback provided by the staff.

Regarding the OIG recommendation that NRC perform a cost-benefit study relative to
sustaining the SGI designation, it is my understanding that the OIG’s intent is that the staff
evaluate if alternatives to the current SGI program are warranted vice doing a formal cost-
benefit analysis. Given its clear statutory role, the lack of a reasonable alternative, and its
current role in providing an essential information designation and protection system, doing such
a cost-benefit analysis would not be an appropriate use of the NRC staff’s time and resources.
I would ask you to look at the wording of this recommendation to assure that it accurately
captures the OIG intent.




                                                21
                                                      Audit of NRC’s Protection of Safeguards Information

                                               -2-

The OIG has identified several areas in which the current SGI program can be improved, and
we essentially agree with these recommendations. Overall, however, the SGI program is
fulfilling its intended function of protecting sensitive security information related to nuclear
facilities. I also believe the NRC has made significant strides in improving the protection of SGI
by NRC employees and licensees over the past several years subsequent to the events of 9/11.

In addition to the comments above, attached are more detailed comments on the draft report
for your consideration. If you would like to discuss our comments, please contact William Dean
at 415-1703 or Melinda Malloy at 415-1785.

Attachment: As stated




                                               22
                                                       Audit of NRC’s Protection of Safeguards Information

                                                                                            APPENDIX B

Comments on OIG Draft Report: Audit of NRC’s Protection of Safeguards Information


Page i, Background, states that SGI deals with information related to the physical protection of
operating power reactors, spent fuel shipments, or the physical protection of special nuclear
material. This description is correct, but incomplete. Section 147 of the Atomic Energy Act
(AEA) also authorizes the Commission to designate as SGI information related to the physical
protection of source material and/or byproduct material in quantities determined by the
Commission to be significant to the public health and safety or common defense and security.
This authority should be noted to correctly reflect the full scope of the Commission’s authority
under AEA § 147.

Page 1, Derivation of Safeguards Information, initially implies that the SGI designation only
applies to information related to the physical protection of operating power reactors, spent fuel
shipments, or the physical protection of special nuclear material. Section 147 of the AEA also
authorizes the Commission to designate as SGI information related to the physical protection of
source material and/or byproduct material in quantities determined by the Commission to be
significant to the public health and safety or common defense and security. Although this is
noted in a bullet on the same page, the discussion could be clarified up front.

Page 4, first paragraph: There are important differences between the NRC’s SGI program and
the government-wide program to protect classified national security information (NSI). NSI is
subject to more burdensome handling, storage, and access authorization requirements.
Requiring NRC licensees to move away from SGI and toward an NSI security clearance and
handling regime would impose substantial burdens during the transition and afterwards as
private sector employees would be required to undergo more rigorous background checks and
training programs to properly receive and handle NSI.

The criteria for classifying information as NSI are different from the criteria for SGI. Eliminating
the SGI designation would potentially leave vital information regarding critical security systems,
plans, and vulnerabilities unprotected against public disclosure where such information could
not be classified under the NSI regime.

Page 5, Definition of Confidential vs. Safeguards Information: The draft report does not justify
its assumption that the additional cost of protecting confidential NSI would be minor compared
to the cost of protecting SGI. The NRC would have to adjudicate thousands of additional
security clearances under an NSI regime and periodically reinvestigate some cleared
individuals. NRC would incur additional costs for expanding its infrastructure for performing
these tasks. There may also be increased costs to inspect licensees’ conformance with
regulations for protecting classified information.

Switching from an SGI regime to an NSI regime would not necessarily result in a wholesale
elimination of licensees’ current programs for evaluating the trustworthiness of its employees
because not all licensee employees would require NSI security clearances. The cost of
providing the more rigorous background checks required for access to NSI would be in addition
to the cost of existing programs, not in substitution of those costs.


                                                 23
                                                      Audit of NRC’s Protection of Safeguards Information

Page 6, last paragraph: SGI is not a classification system. There may be additional burdens in
the protection of SGI if converted to CONFIDENTIAL-National Security Information which are
not reflected in the draft report, e.g., use of security container check sheets and security
container information forms posted on the inside of the locking drawer of the container.
Security education briefings must be established and conducted (e.g., initial security briefing,
refresher briefings every 3 years, and termination briefings) and authorized classifiers will need
to be designated and trained on the requirements of Executive Order (E.O.) 12958, as
amended. The statement that NRC is the only agency that uses the SGI designation,
incorrectly implies that other agencies can meet their needs with the Official Use Only (OUO)
and classified designations, with nothing in between. Many other agencies use designations
similar in nature (e.g., DOE uses Unclassified Controlled Nuclear Information (UCNI)).

Page 7, Handling of Safeguards Modified Information: The OUO designation is not a useful
alternative to the SGI designation. An OUO label does not automatically exempt information
from public disclosure under the Freedom of Information Act, as does the SGI designation.
Moreover, the OUO designation is not legally binding on NRC licensees. NRC licensees in
possession of OUO information are under no legal obligation to provide even the most basic
protections. Thus, the OUO designation is not a viable alternative to SGI or SGI-M, both of
which attach civil and criminal penalties to unauthorized disclosures and provide a measure of
deterrence to unauthorized disclosures.

Page 8: The cost of NRC adjudicating thousands of additional “L” clearances and the cost of
periodic reinvestigations have not been considered. In the second paragraph, there is no
mention of the 145(b) provision which will need to be adhered to. Not all employees would
require Government clearances. Therefore, the licensee would still have to conduct the
employee evaluation programs for those not requiring clearances, so the licensee could not
necessarily entirely forego the fixed costs of maintaining its own employee evaluation program.

In many cases, the licensee might still have to conduct its own employee evaluation in order to
bring an employee on site, and have the Government clearance be granted later. In the
interim, an employee would not be permitted to access certain classified information that
formerly had been SGI and which does not require a Government clearance for access. This
could pose a significant problem for the licensee and could have significant monetary costs, as
well as negative safety and safeguards implications.

Should the NRC take on the responsibility for providing Government clearances for large
numbers of licensee personnel, NRC would incur additional costs for expanding its
infrastructure for performing these tasks. There may also be increased costs to inspect
licensees’ conformance with regulations for protecting classified information. These expenses
would likely be charged to the licensees through NRC’s fee recovery process. On balance,
licensees could incur significant additional costs, rather than savings.




                                               24
                                                      Audit of NRC’s Protection of Safeguards Information

We suggest that Recommendation 1 be rephrased, as follows:

       “1. Determine whether the benefit of the safeguards information designation is worth
       the cost of maintaining a separate safeguards program alternatives to the current SGI
       program, including subsuming SGI under the government-wide program for protecting
       classified information, could provide more effective and efficient protection against
       inappropriate release of sensitive information.”

Page 10, second paragraph: Different interpretation of what is or is not SGI should not be
considered unusual. In classified programs, determining what is classified is not always an
exact science. Therefore, different interpretations are always being challenged. It is
reasonable to expect the same to hold for the SGI program.

Page 11, first paragraph: Although the SGI that was given to the Local Law Enforcement
Agency (LLEA) was not properly marked, the release was not inappropriate because LLEAs are
authorized access to SGI in accordance with 10 CFR 73.21.

Page 13, Section C, first paragraph: Items 2 and 3 have nothing to do with a “Central
Authority” needed for the oversight of the NRC SGI program. Secure telecommunication
equipment acquisition and installation is covered under NRC’s classified information program.
It should also be noted that while NSIR controls the SGI program as a whole, it still relies on the
expertise of the Office of the Chief Information Officer (OCIO) for equipment support, the Office
of Administration for physical security oversight, and the Regions and program offices for
oversight of licensees handling SGI.

Page 15: Although the equipment may be used to communicate SGI, the purchase of secure
communications equipment for NRC resident offices was not done under the aegis of or to
support the SGI program.

In the section on Inadequate Training, NSIR has been coordinating training sessions that
include the protection and handling of SGI since September 11, 2001. As of August 2003,
approximately 90 percent of the agency has been trained on the proper handling requirements
for SGI. NSIR has also issued agency announcements, created a cover sheet with handling
and marking requirements on the reverse side, and created a new marking stamp that is
consistent with current SGI requirements.

Page 16, last paragraph: NSIR has always coordinated with OCIO for the installation of ISDN
lines to operate secure telephone equipment and will continue to do so.

Page 18, Maintenance: COMSEC Custodians are responsible for troubleshooting operational
problems with secure equipment, rekeying secure telephones, and changing fuses associated
with the equipment from time to time. With respect to maintenance, all equipment is required to
be sent to a secure maintenance site when repairs are required.

In the section on Testing, it should be noted that the staff considers any use of secure
telecommunication equipment to qualify as a test. Problems associated with secure
telecommunication are frequently the result of operator error. In addition, many secure



                                                25
                                                      Audit of NRC’s Protection of Safeguards Information

connections take several attempts to complete because of the multiplicity of settings possible
for each phone and fax. This may even result from the differences in versions of equipment
being used.

Page 19, second paragraph: Failure to be able to open a security container is usually due to
operator error.

Last paragraph: Secure telecommunications equipment was primarily installed at Reactor
Resident Inspector sites for transmission of classified information, not for SGI. If SGI needs to
be sent outside a site on a non-emergency basis, it can be done thru U.S. Mail as has been
practiced.

Page 20, second paragraph: NSIR has already taken the lead for coordinating and controlling
the electronic transmission and processing program for SGI.

Last paragraph: OCIO has already rescinded NUREG/BR-0168, Rev. 2 entitled, “Policy for
Processing and Handling Unclassified Safeguards Information and Other Sensitive Information
in the NRC Local-Area/Wide-Area Network Environment,” to eliminate the processing of SGI on
the NRC LAN.

Page 21: The draft report states, “In short, SGI should not be processed on any computer that
is or will be connected to the LAN.” The report’s corresponding Recommendation 6 (“Revise
NRC procedures to eliminate the processing of SGI on the LAN”) appears to be unnecessarily
restrictive.

The draft report highlights an important fact, i.e., that existing guidance for automated
processing of SGI is not consistent, and in some cases wrong. This may be addressed in other
ways.

We recommend that Recommendation 6 be changed to read:

       “6. Revise documentation for NRC procedures to eliminate the processing of SGI on
       the LAN inconsistencies and ambiguities that could imply SGI can be processed on a
       personal computer while it is connected to the unclassified NRC LAN, and to ensure that
       personal computers used for SGI processing while disconnected from the LAN do not
       employ fixed hard drives.”

Page 22: The report’s Recommendations 4 and 5 deal with telecommunications equipment for
transmitting SGI. Pages 16 through 19 of the report address acquisition, installation,
maintenance, and testing of this equipment, detailing numerous problems with testing and
reliability. On page 16, however, there is a statement about the availability of new equipment
that can encrypt conversations through regular telephone lines, without the use of special
equipment, such as STU-IIIs or STEs, or an ISDN line. The report appeared to encourage a
switch to this new technology.




                                               26
                                                      Audit of NRC’s Protection of Safeguards Information

Recommendations 4 and 5 on page 22 seem to neglect this promising new and available
technology, and focus instead on continuing to commit resources for the less reliable
technology now owned by the NRC. They refer to a separate secure telecommunications
network that may not be necessary if the new technology is used. Recommendations 4 and 5
should be revised to permit or encourage a switch to the new technology, rather than force
NRC into spending large amounts of money to acquire, install, test, and maintain the current
technology that involves supporting a separate secure telecommunications network.

The transition to a new secure telecommunications technology may not be instantaneous or
painless, but the report’s recommendations should not, in effect, restrict us to staying with the
current technology longer than necessary. We suggest the following revisions to
Recommendations 4 and 5:

       “4. Provide adequate resources to ensure the timely installation, maintenance, and
       troubleshooting of problems with acquire, install, test, and maintain appropriate secure
       communications technology to effectively and efficiently support the secure
       telecommunications equipment needs of the NRC, as new technologies become
       available and affordable.”

       “5. Formalize a program for periodic testing and documentation of the currently installed
       secure telecommunications network systems to ensure continuing functionality for
       regular use and its readiness for emergency use.”




                                                27
                     Audit of NRC’s Protection of Safeguards Information




[Page intentionally left blank.]




              28
                                                       Audit of NRC’s Protection of Safeguards Information

                                                                                            APPENDIX C
DETAILED OIG ANALYSIS OF AGENCY COMMENTS

Agency Comments:

Page i, Background, states that SGI deals with information related to the physical protection of
operating power reactors, spent fuel shipments, or the physical protection of special nuclear
material. This description is correct, but incomplete. Section 147 of the Atomic Energy Act
(AEA) also authorizes the Commission to designate as SGI information related to the physical
protection of source material and/or byproduct material in quantities determined by the
Commission to be significant to the public health and safety or common defense and security.
This authority should be noted to correctly reflect the full scope of the Commission’s authority
under AEA § 147.


 OIG Response:

 While the agency is correct, the paragraph cited is in the Executive Summary of the report
 which provides a synopsis of the total report. Page 1 of the report provides a fuller
 description of SGI.


Agency Comments:

Page 1, Derivation of Safeguards Information, initially implies that the SGI designation only
applies to information related to the physical protection of operating power reactors, spent fuel
shipments, or the physical protection of special nuclear material. Section 147 of the AEA also
authorizes the Commission to designate as SGI information related to the physical protection of
source material and/or byproduct material in quantities determined by the Commission to be
significant to the public health and safety or common defense and security. Although this is
noted in a bullet on the same page, the discussion could be clarified up front.

 OIG Response:

 OIG agrees that the discussion cited in the bullet could be clarified up front, but believes the
 paragraph and bullets accompanying it are accurate and do not need to be changed.


Agency Comments:

Page 4, first paragraph (now page 2 of this report): There are important differences between
the NRC’s SGI program and the government-wide program to protect classified national
security information (NSI). NSI is subject to more burdensome handling, storage, and access




                                                29
                                                       Audit of NRC’s Protection of Safeguards Information

authorization requirements. Requiring NRC licensees to move away from SGI and toward an
NSI security clearance and handling regime would impose substantial burdens during the
transition and afterwards as private sector employees would be required to undergo more
rigorous background checks and training programs to properly receive and handle NSI.

The criteria for classifying information as NSI are different from the criteria for SGI. Eliminating
the SGI designation would potentially leave vital information regarding critical security systems,
plans, and vulnerabilities unprotected against public disclosure where such information could
not be classified under the NSI regime.

Page 5, Definition of Confidential vs. Safeguards Information (now page 3 of this report): The
draft report does not justify its assumption that the additional cost of protecting confidential NSI
would be minor compared to the cost of protecting SGI. The NRC would have to adjudicate
thousands of additional security clearances under an NSI regime and periodically reinvestigate
some cleared individuals. NRC would incur additional costs for expanding its infrastructure for
performing these tasks. There may also be increased costs to inspect licensees’ conformance
with regulations for protecting classified information.

Switching from an SGI regime to an NSI regime would not necessarily result in a wholesale
elimination of licensees’ current programs for evaluating the trustworthiness of its employees
because not all licensee employees would require NSI security clearances. The cost of
providing the more rigorous background checks required for access to NSI would be in addition
to the cost of existing programs, not in substitution of those costs.

Page 6, last paragraph (now page 4, second paragraph of this report): SGI is not a
classification system. There may be additional burdens in the protection of SGI if converted to
CONFIDENTIAL-National Security Information which are not reflected in the draft report, e.g.,
use of security container check sheets and security container information forms posted on the
inside of the locking drawer of the container. Security education briefings must be established
and conducted (e.g., initial security briefing, refresher briefings every 3 years, and termination
briefings) and authorized classifiers will need to be designated and trained on the requirements
of Executive Order (E.O.) 12958, as amended. The statement that NRC is the only agency that
uses the SGI designation, incorrectly implies that other agencies can meet their needs with the
Official Use Only (OUO) and classified designations, with nothing in between. Many other
agencies use designations similar in nature (e.g., DOE uses Unclassified Controlled Nuclear
Information (UCNI)).

Page 8 (now page 5, second paragraph of this report): The cost of NRC adjudicating
thousands of additional “L” clearances and the cost of periodic reinvestigations have not been
considered. In the second paragraph, there is no mention of the 145(b) provision which will
need to be adhered to. Not all employees would require Government clearances. Therefore,
the licensee would still have to conduct the employee evaluation programs for those not
requiring clearances, so the licensee could not necessarily entirely forego the fixed costs of
maintaining its own employee evaluation program.

In many cases, the licensee might still have to conduct its own employee evaluation in order to
bring an employee on site, and have the Government clearance be granted later. In the
interim, an employee would not be permitted to access certain classified information that
formerly had been SGI and which does not require a Government clearance for access. This

                                                 30
                                                     Audit of NRC’s Protection of Safeguards Information

could pose a significant problem for the licensee and could have significant monetary costs, as
well as negative safety and safeguards implications.

Should the NRC take on the responsibility for providing Government clearances for large
numbers of licensee personnel, NRC would incur additional costs for expanding its
infrastructure for performing these tasks. There may also be increased costs to inspect
licensees’ conformance with regulations for protecting classified information. These expenses
would likely be charged to the licensees through NRC’s fee recovery process. On balance,
licensees could incur significant additional costs, rather than savings.

We suggest that Recommendation 1 be rephrased, as follows:

       “1. Determine whether the benefit of the safeguards information designation is worth
       the cost of maintaining a separate safeguards program alternatives to the current SGI
       program, including subsuming SGI under the government-wide program for protecting
       classified information, could provide more effective and efficient protection against
       inappropriate release of sensitive information.”


 OIG Response:

 During the audit, NRC staff was not able to provide any formal justification for the SGI
 designation other than anecdotal accounts of the costs involved to change it or that it has
 been done this way for the last 20 years. NRC should formally document that the legal basis
 for continued use of the SGI designation is justified on its merits alone. Absent that position,
 the primary anecdotal justification provided by NRC staff for maintaining the SGI designation
 was the cost of doing away with the SGI designation in order to go to the confidential
 designation. OIG was provided with this same position during the audit fieldwork, but
 agency staff could not provide any detailed analysis of the difference in cost between the two
 designations. In some cases, licensees with whom OIG spoke were implementing actions in
 protecting SGI which agency staff described as added burdens if the confidential designation
 was required. OIG attempted to perform a cost-benefit analysis for maintaining the SGI
 designation, but the figures provided by agency staff and licensees were inconsistent, wide
 ranging, and non-inclusive for all of the considerations identified by the staff. The point of
 this finding, in light of the events of September 11, 2001, and a subsequent Executive Order
 re-defining confidential information, is whether business as usual is still justified.

 OIG made minor modifications to the draft report to clarify some of the other points made by
 the staff. Additionally, OIG reworded the recommendation for this finding to more directly
 articulate OIG’s expectation.




                                               31
                                                      Audit of NRC’s Protection of Safeguards Information

Agency Comments:

Page 10, second paragraph (now page 7, first paragraph of this report): Different interpretation
of what is or is not SGI should not be considered unusual. In classified programs, determining
what is classified is not always an exact science. Therefore, different interpretations are always
being challenged. It is reasonable to expect the same to hold for the SGI program.


  OIG Response:

  While OIG understands the staff’s comments, OIG cannot endorse this position to excuse
  inappropriate releases of SGI. A clearer definition of SGI can only help to prevent
  inappropriate releases of SGI and limit the number of occasions where different
  interpretations have influenced such releases.


Agency Comments:

Page 11, first paragraph (now page 7, third paragraph of this report): Although the SGI that
was given to the Local Law Enforcement Agency (LLEA) was not properly marked, the release
was not inappropriate because LLEAs are authorized access to SGI in accordance with 10 CFR
73.21.


 OIG Response:

 Whether or not LLEAs are authorized access to SGI does not mean they had an appropriate
 “need-to-know” and, therefore, does not negate that the release was inappropriate. The
 release was inappropriate as evidenced by the NRC official requiring that the document in
 question be returned to the agency and because is was not properly marked. Inappropriate
 releases of SGI are not simply determined on the merits of who received the information but
 also on whether they are properly handled and marked to ensure the information does not go
 to individuals other than intended.




Agency Comments:

Page 13, Section C, first paragraph (now page 8 of this report): Items 2 and 3 have nothing to
do with a “Central Authority” needed for the oversight of the NRC SGI program. Secure
telecommunication equipment acquisition and installation is covered under NRC’s classified
information program. It should also be noted that while NSIR controls the SGI program as a
whole, it still relies on the expertise of the Office of the Chief Information Officer (OCIO) for
equipment support, the Office of Administration for physical security oversight, and the Regions
and program offices for oversight of licensees handling SGI.

Page 15 (now page 9 of this report): Although the equipment may be used to communicate
SGI, the purchase of secure communications equipment for NRC resident offices was not done
under the aegis of or to support the SGI program.
                                               32
                                                      Audit of NRC’s Protection of Safeguards Information




 OIG Response:

 The report identifies on page 9 that the secure telecommunications equipment was
 acquired and installed to ensure the agency could send classified information to the
 licensees. On page 11, OIG recognizes that an additional benefit of this equipment is using
 it to communicate SGI. Whether or not the equipment was directly acquired for use with
 classified information is not the point. Rather, in the context of this report and the agency’s
 use of the equipment with SGI, issues related to the secure telecommunications equipment
 must be addressed by the agency to ensure it is available for use when needed.



Agency Comments:

In the section on Inadequate Training, NSIR has been coordinating training sessions that
include the protection and handling of SGI since September 11, 2001. As of August 2003,
approximately 90 percent of the agency has been trained on the proper handling requirements
for SGI. NSIR has also issued agency announcements, created a cover sheet with handling
and marking requirements on the reverse side, and created a new marking stamp that is
consistent with current SGI requirements.

 OIG Response:

 OIG recognizes the coordinated training sessions in Section IV, “Management Initiatives,”
 beginning on page 15 of the report. However, OIG’s point is that training has been
 fragmented and, as implied in the agency response through NSIR’s coordinating the training
 session, there is no single point of ownership for the training. Moreover, OIG’s concern is
 that any actions taken to implement the recommendations in the report must be factored into
 any future training. As training in SGI is mandatory, any changes would have to be
 communicated during the required annual training. Moreover, in training the 10 percent of
 the agency staff who have not received instruction in the proper handling requirements for
 SGI, these factors should be considered.


Agency Comments:

Page 16, last paragraph (now page 11, second paragraph of this report): NSIR has always
coordinated with OCIO for the installation of ISDN lines to operate secure telephone equipment
and will continue to do so.




                                               33
                                                      Audit of NRC’s Protection of Safeguards Information




 OIG Response:

 OIG recognizes OCIO has been involved with coordinating the installation of ISDN lines.
 However, in context with the entire paragraph and the paragraph preceding it, OIG is
 identifying that coordination will have to take place among all responsible offices for future
 telecommunications equipment purchases to ensure the proper equipment is obtained, not
 just the installation of ISDN lines.


Agency Comments:

Page 18, Maintenance (now page 12 of this report): COMSEC Custodians are responsible for
troubleshooting operational problems with secure equipment, rekeying secure telephones, and
changing fuses associated with the equipment from time to time. With respect to maintenance,
all equipment is required to be sent to a secure maintenance site when repairs are required.



 OIG Response:

 OIG clearly identifies that COMSEC Custodians are responsible for troubleshooting
 operational problems with secure equipment and is aware they are responsible for rekeying
 secure telephones. OIG disagrees that they are responsible for changing fuses associated
 with the equipment other than that located in headquarters and the regional offices. The
 inspectors or administrative assistants at the nuclear power plant sites perform that function
 when fuses need replacement. OIG recognizes and agrees that, except for replacing fuses
 and rekeying secure telephones, all equipment is required to be sent to a secure
 maintenance site when repairs are required.


Agency Comments:

In the section on Testing, it should be noted that the staff considers any use of secure
telecommunication equipment to qualify as a test. Problems associated with secure
telecommunication are frequently the result of operator error. In addition, many secure
connections take several attempts to complete because of the multiplicity of settings possible
for each phone and fax. This may even result from the differences in versions of equipment
being used.

Page 19, second paragraph (now page 12, last paragraph of this report): Failure to be able to
open a security container is usually due to operator error.




                                               34
                                                       Audit of NRC’s Protection of Safeguards Information




 OIG Response:

 OIG does not accept the premise that any use of secure telecommunications equipment
 qualifies as a test of that equipment. If the equipment fails when it is needed, it has failed in
 use, not during a test. Regular, periodic testing of the equipment would minimize the
 amount of human error associated with failures by building in familiarity with the equipment.
 Moreover, the agency will need to evaluate whether the differences in the versions of
 equipment being used is acceptable for the number of failures that have occurred. As to the
 failure of opening a security container due to operator error, this also can be minimized by
 regular, periodic testing which will require access to the contents of the security container.


Agency Comments:

Last paragraph (now page 13, first paragraph): Secure telecommunications equipment was
primarily installed at Reactor Resident Inspector sites for transmission of classified information,
not for SGI. If SGI needs to be sent outside a site on a non-emergency basis, it can be done
thru U.S. Mail as has been practiced.

  OIG Response:

  See OIG’s response to the agency’s comments related to page 9.


Agency Comments:

Page 20, second paragraph (now page 13 of this report): NSIR has already taken the lead for
coordinating and controlling the electronic transmission and processing program for SGI.

Last paragraph: OCIO has already rescinded NUREG/BR-0168, Rev. 2 entitled, “Policy for
Processing and Handling Unclassified Safeguards Information and Other Sensitive Information
in the NRC Local-Area/Wide-Area Network Environment,” to eliminate the processing of SGI on
the NRC LAN.

Page 21, (now page 13, last sentence of this report): The draft report states, “In short, SGI
should not be processed on any computer that is or will be connected to the LAN.” The report’s
corresponding Recommendation 6 (“Revise NRC procedures to eliminate the processing of SGI
on the LAN”) appears to be unnecessarily restrictive.

The draft report highlights an important fact, i.e., that existing guidance for automated
processing of SGI is not consistent, and in some cases wrong. This may be addressed in other
ways.

We recommend that Recommendation 6 be changed to read:

       “6. Revise documentation for NRC procedures to eliminate the processing of SGI on
       the LAN inconsistencies and ambiguities that could imply SGI can be processed on a
                                             35
                                                      Audit of NRC’s Protection of Safeguards Information

       personal computer while it is connected to the unclassified NRC LAN, and to ensure that
       personal computers used for SGI processing while disconnected from the LAN do not
       employ fixed hard drives.”

 OIG Response:

 OIG submitted its discussion and final draft reports to the agency in early September and late
 October 2003, as applicable, and the agency’s response to the report was received
 December 12, 2003. In the interim, if agency staff have taken actions to address parts of the
 OIG recommended actions, they have not officially notified OIG nor provided any evidence of
 these actions. Moreover, OIG believes that recommendation 6 is appropriate as written.



Agency Comments:

Page 22, (now page 14 of this report): The report’s Recommendations 4 and 5 deal with
telecommunications equipment for transmitting SGI. Pages 16 through 19 of the report
address acquisition, installation, maintenance, and testing of this equipment, detailing
numerous problems with testing and reliability. On page 16, however, there is a statement
about the availability of new equipment that can encrypt conversations through regular
telephone lines, without the use of special equipment, such as STU-IIIs or STEs, or an ISDN
line. The report appeared to encourage a switch to this new technology.

Recommendations 4 and 5 on page 22 seem to neglect this promising new and available
technology, and focus instead on continuing to commit resources for the less reliable
technology now owned by the NRC. They refer to a separate secure telecommunications
network that may not be necessary if the new technology is used. Recommendations 4 and 5
should be revised to permit or encourage a switch to the new technology, rather than force
NRC into spending large amounts of money to acquire, install, test, and maintain the current
technology that involves supporting a separate secure telecommunications network.

The transition to a new secure telecommunications technology may not be instantaneous or
painless, but the report’s recommendations should not, in effect, restrict us to staying with the
current technology longer than necessary. We suggest the following revisions to
Recommendations 4 and 5:

       “4. Provide adequate resources to ensure the timely installation, maintenance, and
       troubleshooting of problems with acquire, install, test, and maintain appropriate secure
       communications technology to effectively and efficiently support the secure
       telecommunications equipment needs of the NRC, as new technologies become
       available and affordable.”

       “5. Formalize a program for periodic testing and documentation of the currently installed
       secure telecommunications network systems to ensure continuing functionality for
       regular use and its readiness for emergency use.”




                                                36
                                                     Audit of NRC’s Protection of Safeguards Information




OIG Response:

On page 11 of the report, OIG cited, as an example, that NSA officials said that new
equipment is now available that can encrypt conversations through regular telephones. OIG
did not corroborate this information or do any audit work to determine the feasibility of its use
by NRC. As such, the agency would have to consider the application and cost of such
equipment for future use by the agency. Until such time as the agency replaces the secure
telecommunications equipment currently in place, NRC must ensure that the system it
currently employs is properly installed, maintained, troubleshot, and tested. No revisions to
the recommendations 4 and 5 are needed.




                                              37
